No.

IN THE
SUPREME COURT OF THE UNITED STATES

Samuel L.Woody

— PETITIONER

(Your Name)
vs.
State of New Jersey

— RESPONDENT (S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Superior Court of New Jersey Appellate Division
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Samuel L. Woody
(Your Name)
721 Kensington Avenue
(Address)
Plainfield, New Jersey, 07060
(City, State, Zip Code)
(908) 531-4778
(Phone Number)

QUESTION(S) PRESENTED

While the PCR court did not address the conflict of interest issue in it's decision,
is counsel deemed ineffective for failing to investigate and call a witness, one with whc
counsel has a potential conflict of interest, who could speak directly to the alleged
victim's history and pattern of vindictive behavior and false allegations toward defenda
and others?

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Union County Prosecutors Office, Elizabeth NJ, Acting Prosecutor Lyndsay V. Ruotol
Hassen Abdellah Esq. 747 Westminster Avenue, Elizabeth, N J 07205

RELATED CASES
State of New Jersey v. Samuel Woody Docket No. A-4281-13T1 Direct Appeal.
State of New Jersey v. Samuel Woody Docket No. A-0229-18T1 On Appeal
Denying Post-Conviction Relief of the Superior Court of New Jersey, Middlesex
County.

TABLE OF CONTENTS

1

OPINIONS BELOW
JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES

APPENDIX A Superior Court Of New Jersey Appellate Division NO. A-0229-18T1 Decision

APPENDIX B Superior Court of New Jersey, Middlesex County Trial Court Order
APPENDIX C

APPENDIX D

APPENDIX E

APPENDIX F

TABLE OF AUTHORITIES CITED
Cases

Page Number

In De Rolan 76 NJ 1 (1978)

12

Johnson v. Zerbst 304 U.S 458 (1938)

13

Kimmeleman v. Morrison. 477 U.S. 356 (1986)

10

State v. Bellucci 81 NJ 531 (1980)
State v. Bey 161 NJ (1999)

10

State v. Chew, 179 NJ 19 (2004)

9

State v. Davis 116 NJ 341 (1989)

10

State v. Fritz 105 NJ 42 (1987)

9

State v. Jones 219 NJ (2014)

7

State v Loyal 164 NJ (2000)..

12

State v. Marshall 148 NJ(1997)

8,9

State v. Miller 216 NJ (2013)

7

State v. Murray 315 NJ (App. Div. 1989)

14

State v. Murray 345 NJ (App. Div. 2001)...

11

State v. Pierce 223 NJ (2016)

7

State v. Pierree-Louis 216 NJ (2014)

7

State v. Preciose 129 NJ (1992)

6,7,8

State v. Pyatt 316 (App. Div. 1998).

9

State v. Russo 333 NJ (App. Div. 2000)

8

Strickland v. Washington 466 U.S. 668 (1984)

8

/

United States v. Debango 780 (D.C. Cir. 1986)

9

United States v. Dolan (3d Cir. 1978)

12

United States v. Kole (D.N.J 1998)

14

United States v. Morelli (D.N.J 1999)

14

United States v. Moscony (3d Cir. 1991)

12,13

STATUTES AND RULES
N.J.S.A. 2C:14-3b
N.J.S.A. 2C:30-2
N.J.S.A 2C:51-2a(l)
Rule 3:22-10
RPC 1.7
RPC 1.7 (a) 2

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
y For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix__A__ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[xl is unpublished.
The opinion of the_
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[xl is unpublished.
1.

JURISDICTION
[ ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was_______________________
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[x] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix__A___

11/14/19

[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No. __ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

/

TABLE OF AUTHORITIES CITED
Page Number

Cases
In De Rolan 76 NJ 1 (1978)

12

Johnson v. Zerbst 304 U.S 458 (1938).

13

Kimmeleman v. Morrison. 477 U.S. 356 (1986)

10

State v. Bellucci 81 NJ 531 (1980)

13

State v. Bey 161 NJ (1999)

10

State v. Chew, 179 NJ 19 (2004)....

9

State v. Davis 116 NJ 341 (1989)

10

State v. Fritz 105 NJ 42 (1987)

9

State v. Jones 219 NJ (2014)

7

State v Loyal 164 NJ (2000)__

12

State v. Marshall 148 NJ(1997)

.8,9

State v. Miller 216 NJ (2013)

7

State v. Murray 315 NJ (App. Div. 1989)

14

State v. Murray 345 NJ (App. Div. 2001)

11

State v. Pierce 223 NJ (2016)

7

State v. Pierree-Louis 216 NJ (2014)

7

State v. Preciose 129 NJ (1992)

6,7,8

State v. Pyatt 316 (App. Div. 1998)

9

State v. Russo 333 NJ (App. Div. 2000)

8

Strickland v. Washington 466 U.S. 668 (1984)

8

16

United States v. Debango 780 (D.C. Cir. 1986)

9

United States v. Dolan (3d Cir. 1978)

12

United States v. Kole (D.N.J 1998)

14

United States v. Morelli (D.N.J 1999)

14

United States v. Moscony (3d Cir. 1991)

12,13

STATUTES AND RULES
N.J.S.A. 2C:14-3b
N.J.S.A. 2C:30-2
N.J.S.A 2C:51-2a(l)
Rule 3:22-10
RPC 1.7
RPC 1.7 (a) 2

17

STATEMENT OF THE CASE
K.C. lived in Plainfield, NJ in July of 2011. (2T 59-24 to 25). She lived with
her son and was solely responsible for his care. (2T 60-1 to 10). K.C. had been
dating a Plainfield police officer named Fernando Sanchez for over a year. (2T 60-17
to 25). A few months into their relationship, K.C. discovered Sanchez was married.
(2T 62-6 to 16). She broke off the relationship for a little while but went back to
Sanchez. (2T 63-4 to 8). About seven or eight months into their relationship, K.C.
began to suspect that Sanchez was involved with a third woman. (2T 63-9 to 17).
On July 23, 2011, K.C. was driving to a club with a friend when she saw
Sanchez’s police car outside what she believed to be the home of the third woman.
(2T 63 to 64-25). At this time, their relationship was “rocky” because K.C. had lost
her job in May, and she had been contacting Sanchez for help who was not
responding. (2T 62-5; 2T 65-11 to 18).
K.C. went into the police car and took Sanchez’s cell phone. (2T 66-19). She
took it because she was upset but planned on returning it. (2T 66-23 to 67-1). She
went through Sanchez’s text messages and confirmed he was involved with another
woman. (2T 67-11 to 15). She called the other woman’s number and asked for
Sanchez, but he would not get on the phone. (2T 67-20 to 68-14). Connelly left for
the club with her friend, taking Sanchez’s phone with her. (2T 69-7 to 11).
While at the club, K.C. received a phone call on her personal cell phone from
the defendant. (2T 69-12 to 22). She “knew” of defendant, who was a police officer

1

with Sanchez. (2T 70-1 to 11). Defendant asked K.C. to return the stolen phone and
told her that she would not be arrested. (2T 72-7 to 20).
After the club closed, K.C. went to a restaurant and met defendant. (2T 73-17
to 25). She tried to hand defendant the phone, but he asked her to meet him at the
police station. (2T 74-1 to 4). At the police station, defendant told K.C. that she had
to come inside. (2T 74-14). She went into a room with defendant and another police
officer, Lieutenant Urbanski. (2T 74-17 to 20). K.C. told defendant and Urbanski
that she was going to return the phone and that she had taken it because she was
upset with Sanchez. (2T 75-6 to 18). K.C. was fingerprinted, photographed, and
served with a criminal summons and complaint. She then left the station. (2T 76-4
to 77-5).
Soon after, defendant met K.C. outside the station and asked to speak with
her “about what was going on.” (2T 77-8 to 23). After dropping her friend off, K.C.
met defendant and followed him, driving behind his police car. (2T 78-11 to 80-8).
They parked their cars in a gravel driveway behind a house. (2T 81-12 to 82-1). It
was about 4:20 a.m. (2T 82-2 to 5).
K.C. said defendant told her she could get five years in prison for going into a
police car. (2T 83-1 to 3). K.C. asked defendant to get rid of the paperwork, but
defendant told her he could lose his job for that. (2T 84-23 to 85-4). According to
K.C., she went to leave when defendant requested to see he vaginal area. (2T 85-5
to 18). K.C. told defendant he could trust her to not tell on him for helping her out.

2

(2T 85-19 to 20). Defendant insisted that she would have to do something to make
him trust her, (2T 85-22 to 86-12) to which K.C. agreed. (2T 88-16 to 18).
Defendant asked K.C. if she were recording their conversation. (2T 86-13 to
21). This gave her the idea to actually record it. (2T 86-22 to 24). She started the
record feature on her cell phone and placed it in the ashtray of her car. (2T 87-1 to
8). The recording was played in court and discussed in detail. (2T 90-17 to 119-9).
K.C. said defendant directed her to touch her vaginal area and that he exposed his
penis and masturbated. (2T 102-18 to 23; 2T 109-18 to 110-8).
K.C. did the sexual acts on the recording because she had a son and did not
want to go to prison. (2T 119-8 to 12). She filed a civil suit against the Plainfield
Police Department, requesting relief in the form of one million dollars. (2T 122-14
to 20; 3 T 150-17 to 153-4). She said she did not care whether she received any
monetary reward from the lawsuit, but also admitted she had no intention to
withdraw her civil complaint. (3T 152-21 to 153-4).
K.C. said the defendant served her with “upgraded charges” the following
day. (2T 119-16 to 22). She asked the defendant about what they did to which he
replied, “Oh, that never happened.” (2T 119-23 to 120-1).
Defendant had been employed by the City of Plainfield as a police officer for
thirteen years and held the rank of sergeant. (4T 45-1 to 22). He knew of K.C. on
July 24, 2011, and the two had a social relationship. (4T. 46-23 to 48 -15).
Defendant had been out to eat with her and the two had been to each other’s homes.

3

(4T 48-16 to 22). Defendant had also given her money for gas, food, and bills on
numerous occasions. (4T 48-23 to 49-10).
Sometime during the night of July 23, 2011, or early morning hours of July
24, 2011, defendant was contacted by Sanchez about a stolen cell phone. (4T 50-7 to
53-19). Sanchez met with defendant, and defendant’s superior, Urbanski, and
reported that he believed K.C. stole his cell phone out of his police vehicle. (4T 54-1
to 11). At that time, defendant did not know K.C. was having a relationship with
Sanchez. (4T 50-2 to 6).
Defendant called K.C. and told her that there was an allegation that she had
taken the cell phone. (4T 54-15 to 18). K.C. admitted that she had the phone. (4T
54-18 to 19). Defendant asked her to bring the phone back to the station and return
it to Sanchez. (4T 54-19 to 21). Eventually, K.C. came to the police station and met
with defendant and Urbanski. (4T 56-14 to 57-5). After they discussed the
allegations, Urbanski directed defendant to place K.C. under arrest and charge her
for taking the cell phone out of the car. (4T 57-19 to 22). Defendant drafted a
summons and complaint against K.C. for theft. (4T 57-23 to 61-8). When K.C. was
leaving the station, she asked if she could come by his place. (4T 62-13 to 20). K.C.
appeared upset so defendant agreed. (4T 62-20 to 25).
When defendant’s shift ended, he went home, got a shower, and poured
himself a glass of wine. (4T 63-1 to 180. At some point, K.C. knocked on the door.
(4T 63-22 to 64-2). She wanted to come inside, but defendant refused “because often
times when she comes, and we spend time together she wants to spend the night.”

4

(4T 65-4 to 6). Defendant then stepped outside and they talked. (4T 65-10 to 16).
K.C. was apologetic and appeared to he more upset about defendant discovering her
relationship with Sanchez. This surprised and disappointed defendant. (4T 65-16 to
67-5).
During the discussion, defendant and K.C. “became a little intimate.” (4T 682 to 10). Consensual sexual acts between himself and K.C. ensued which were
recorded by K.C. (4T 68-11 to 94-8). He denied directing K.C. to touch herself or
that he touched his penis. (4T 79-22 to 80-4; 4T 87-11 to 22). Defendant explained
that the recorded conversation had to do with him helping her out with bill money
and debts she incurred with collection agencies. (4T 84-21 to 24; 6T 211-04 to 8).
The next day defendant went to K.C. house to serve her with amended charges,
which the prosecutor had upgraded to burglary. (4T 94-3 to 95-15).
After his conviction, defendant filed a direct appeal. In his appeal defendant
argued that failure to charge a material element of second-degree official
misconduct was plain error, failure to charge lewdness as a lesser-included offense
of criminal sexual contact was plain error, and prosecutorial misconduct denied
defendant of a fair trial. The Appellate Division denied each of defendant’s claims.
On post-conviction relief defendant argued that, trial counsel was ineffective
for failing to adequately investigate and prepare for trial. Specifically, trial counsel
failed to look into Sanchez as a corroborating witness to defendant’s theory that
K.C. was merely looking for financial support and had no qualms about exploiting
others to achieve her means. (9T 4-4 to 6-16). Defendant’s whole theory was that

5

the recording was out of context and that K.C. used manufactured criminal liability
against defendant as a basis of support for her one-million-dollar civil suit.
The court determined the recording could only be interpreted against
defendant’s interest. (9T 7-2 to 22). Additionally, the court determined there was
no showing of prejudice, or that the outcome would have been different, had
Sanchez been called to the stand, (9T 8-8 to 15). Defendant’s petition for post­
conviction relief was denied. (9T 13-17 to 19).
Defendant argues that he received ineffective assistance of counsel during
the pre-trial stage of his criminal proceedings. Defendant contends that counsel
failed to investigate Officer Sanchez as a potential witness, one that would have
lent credibility to defendant’s version of events, and to a different outcome at trial.
Additionally, the relationship between trial counsel, and counsel who represented
Sanchez during the investigation, brings the omission of Sanchez’s testimony at
trial into even further scrutiny. The possibility that defendant’s counsel labored
under a conflict of interest with Sanchez’s attorney must be explored under a
standard of an appearance of impropriety.
An evidentiary hearing becomes necessary if there is a dispute of fact
respecting matters which are not on the record. State v. Preciose, 129 N.J. 451
(1992). The dispute of fact in the case at hand are two-fold. First, the issue is
whether the attorney representing the defendant even investigated Sanchez as a
defense witness to corroborate defendant’s theory of the case; and secondly, if he did
investigate, did he choose not to call Sanchez due to a conflict of interest. Defendant

6

submits an evidentiary hearing is required in order to establish a record of counsel’s
prejudicial inaction on this issue.
The defendant claims that the trial court erred when it failed to grant him an
evidentiary hearing on his ineffective assistance of counsel claims. Rule 3:22-10
distinguishes when there is judicial discretion and when there is judicial mandate to
conduct such a hearing. The Supreme Court found that “A defendant’s claim of
ineffective assistance of trial and appellate counsel is more likely to require an
evidentiary hearing because the attorney’s testimony may be required.” Preciose .
supra , 129 N.J. at 462.
Our courts have noted the need for evidentiary hearing in ineffective
assistance of counsel claims, acknowledging defendant must develop a record at a
hearing at which counsel can explain the reasons for his conduct and inaction, and at
which the trial judge can rule upon the claims including the issue of prejudice. State
v. Pierce , 223 N.J, 560, 577-79 (2016); State v. Jones. 219 RJ, 298, 310-11. (2014);
State v. Pierre-Louis , 216 N.J. 577, 579 (2014); State v. Miller. 216 N.J. 40, 57-58.
(2013). Defendant was denied the opportunity to create a record, and the trial court
erroneously proceeded in the absence of any record. Trial courts should ordinarily
grant evidentiary hearings to resolve ineffective assistance claims when the
defendant has presented a prima facie claim in support of post-conviction relief.
Preciose. supra. 129 N.J. at 462,
To establish a prima facie case in support of post-conviction relief, entitling the
defendant to an evidentiary hearing on post-conviction relief claims, a defendant

7

must demonstrate that there is a reasonable likelihood that his claims will ultimately
succeed on the merits. State v. Marshall. 148 N.J. 89 (1997), cert, denied. 522 U.S.
850 (1999). To succeed on the merits on an ineffective assistance claim, the defendant
must set forth the likelihood of passing the test set forth in Strickland v. Washington.
466 UJL 668 (1984).
If a prima facie showing of ineffective assistance of counsel has been made, the
judge deciding an issue of post-conviction relief may not assume the evidence
proffered does not create a reasonable probability that the result of the proceeding
would have been different. State v. Russo. 333. N.J. Super 119 (App. Div. 2000). In
such an instance, the judge is required to take testimony in order to make that
determination.
In determining the propriety of an evidentiary hearing, the post-conviction
relief court should ascertain “whether the defendant would he entitled to post­
conviction relief if the facts were viewed in the light most favorable to defendant.”
Marshall, supra. 148 N. J. at 158. The facts in the most favorable light to defendant
are that counsel never investigated the possibility of using Sanchez as a witness to
refute G

version of events, or alternatively, if he had, he failed to present

him due to a conflict of interest.
In this case the record is unclear. What is unclear is why Sanchez was never
considered as a witness for the defense. It is a good indication that the matter cannot
be adjudicated on the papers when issues of fact involve events that occurred off the

8

record. State v. Pvatt, 316 N.J. Super. 46 (App. Div. 1998), certif. denied 158 N.J. 72
(1999).
The trial judge did not look at the facts in the most favorable light to the
defendant to determine whether an evidentiary hearing was justified. Had the judge
examined the facts in the most favorable fight to the defendant, it is argued that an
evidentiary hearing would have been required. Defendant is entitled to an
evidentiary hearing because he made specific allegations of facts in dispute, and
favorable resolution of those facts would entitle the defendant to relief. Marshall.
supra. 148 N.J. at 158.
It is well settled in New Jersey that the failure of defense counsel to conduct
adequate pretrial preparation renders him ineffective, regardless of the quality of his
performance at trial. State v. Fritz. 105 N.J. 42 (1987). Strategic decisions made after
less than a complete investigation are subject to greater scrutiny on appeal. State v.
Chew. 179. N.J. 186. (2004). Counsel must have full knowledge of the information to
be used before an informed decision can be made. United States v. Dehango. 780 F.2d
81 (D.C Cir. 1986).
In this instance, counsel was unprepared. Trial counsel’s inadequate
preparation dispelled the presumption of confidence that might have otherwise arisen
from a strategic choice. State v. Bev. 161 N.J. 233 (1999), cert, denied 530 U.S. 1245.
(2000); State v. Davis. 116 N.J, 341. (1989).
The Supreme Court has held that the adversarial process “generally will not
function properly unless defense counsel has done some investigation into the

9

prosecutor’s case and into various defense strategies.” Kimmeleman v. Morrison.
477. U.S. 356. (1986). Here, it cannot be said that counsel properly investigated the
State’s case. Counsel’s failure to investigate a potential witness, one who could attest
to K.C. motive to use defendant in furtherance of financial gain, was prejudicial to
defendant’s case.
By K.C. own admission, Sanchez knew her intimately. (2T 60-17 to 25). Who
better to provide credible testimony with regard to her motives? He could have
spoken directly about her demonstrated vindictive behavior in the theft of his cell
phone. A felony she admitted to because her emotions got the best of her. (2T 75-6
to 18; 4T 54-18 to 19). Sanchez could have spoken to her financial difficulties, which
were the crux of the defense. K. C. admitted she was angry when she lost her job, and
when she called Sanchez for support, he was unavailable. (2T 62-5; 2T 65-11 to 18).
The proffer of Sanchez testimony there would have been to show her decision making
was influenced by her need for financial support. There was a pattern of behavior
that when K.C. financial and/or emotional needs were not met she responded
spitefully.
Defendant’s theory of the case rested on K.C. viewing him as just another
means of financial gain. Had Sanchez testified, her credibility would have been
brought into serious question in the minds of the jurors. It is unclear why counsel
chose to forego this critical resource at trial, or whether he even investigated it at all.
Counsel has a “duty to make reasonable decisions that makes particular
investigations unnecessary.” Strickland, supra. 466 U.S. at 691.

10

Sanchez, as a potential witness, could have fortified the viable and credible
version of events presented by defendant. This fundamental lack of preparedness
rose to the level of “unreasonable professional conduct” and a prim a facie showing of
ineffective assistance. State v. Murray. 345. N.J. Super. 158 (App. Div. 2001). The
defendant argues that such lack of preparedness constitutes an “egregious
shortcoming in professional performance” and as such, a presumption of prejudice
arises and a need to demonstrate actual prejudice is not required. Id.
Counsel’s performance was deficient.

It fell below a reasonable objective

standard of representation. It was essential for counsel to investigate and interview
Sanchez at the very least. Defendant was left without a sustainable defense
otherwise. Furthermore, defendant was prejudiced by the deficiency. There were no
limits or barriers on counsel’s ability to investigate the case properly. If he had, the
results of the proceedings would have been different.
A second component, warranting an evidentiary hearing on this issue, is a
conflict of interest. The defendant claims that a conflict of interest arose in this case
between his counsel, and counsel who represented Sanchez during the investigative
process. Specifically, counsel for defendant, and counsel for Sanchez, shared office
space and legal staff together. (9T 4-7 to 13). There was a symbiotic relationship
between the two. It was apparent on its face that Sanchez would have done what he
could to avoid testifying at trial to save himself the embarrassment of admitting to
multiple relationships while married.

Furthermore, there is a strong likelihood

Sanchez was supporting K.C. financially, a fact he certainly would try to avoid

11

disclosing publicly to his wife. If true, this was yet another failed opportunity to
corroborate defendant’s theory of a financial motive in this case.
The

attorney-client

relationship

is

grounded

in

the

fundamental

understanding that an attorney will give “complete and undivided loyalty to the
j

client” so that the attorney should be able to advise the client in such a way as to
protect the client’s interests, utilizing his professional training, ability and judgement
to the utmost.” In re Dolan. 76 N.J. 1, 9 (1978); see, RPC 1.7.
Accordingly, in the criminal setting, it is incumbent on the courts to ensure
that defendant’s receive conflict-free representation. State v. Loyal, 164 N.J. 418,
433 (2000) (emphasizing trial courts responsibility for “assuring the fairness and
reliability of the trial”). The federal courts similarly act to protect the integrity of
their proceedings when a defendant’s Sixth Amendment rights are placed at risk by
an attorney’s conflict of interest. See e.g.. United States v. Dolan. 570 f.2d 1177,
1184. (3d Cir. 1978).
In criminal matters, in which the trust between attorney and client has
enhanced importance, special vigilance is required because an attorney’s divided
loyalty can undermine a defendant’s Sixth Amendment right to effective assistance
of counsel. See e,g., United States v Mosconv. 927 F. 2d . 742, 748 (3d. Cir. 1991)
(noting that the defendant’s right to effective assistance of counsel includes both
adequate representation and right to attorney’s conflict-free, undivided loyalty). The
Sixth Amendment right to effective assistance of counsel, binding on the states by the
Fourteenth Amendment, Johnson v. Zerbst. 304 U.S. 458 (1938), requires a defense

12

attorneys’ representation to be “untrammeled and unimpaired.” State v. Bellucci, 81
N.J. 531, 538. (1980). Therefore, although a defendant must have a fair opportunity
to have counsel of his own choosing, that right must yield when an actual conflict is
found. Mosconv, supra. 927 f.2d at 749-50.
The facts of this case reveal that it was in the best interest of Sanchez, and the
attorney who represented him during the investigation, to keep out of the trial.
Defendant’s counsel was placed in a position to choose whether to represent the best
interest of his client or represent the best interest of the attorney he has to see every
day, share office space and staff with. The failure to call Sanchez as a witness may
pass muster as a strategic choice on its face, however, when combined with an aura
of impropriety, farther investigation is required.
The PCR court did address the conflict of interest issue in its decision. (9T).
Defendant argues that his argument has merit in the counsel labored under a conflict
of interest. Specifically, “there is a significant risk that the representation of one or
more clients will be materially limited by the lawyer’s responsibilities to another
client, a former client or a third person or by a personal interest of the lawyer.”
(emphasis added) RPC 1.7 (a)2.
An “actual conflict of interest” claim arises after trial upon the discovery of a
previously unnoticed conflict of interest on the part of trial counsel. United States v.
Morelli, 169. F.3d. 789. (D .N.J. 1999). Defendant was not aware of the quasi-partner
relationship between his counsel and counsel who represented a likely corroborating
witness in his case. When a conflict of interest is alleged, a defendant must identify

13

something specific as to what constituted the conflict. United States v. Kole. 164
F.3d. 164 (D.N.J. 1998). cert, denied 119 S.Ct. 1484. The facts cited above establish
such a conflict. Defendant was placed in a position to compete against the loyalty
counsel shared between himself and another attorney.

As such, defendant has

demonstrated that trial counsel labored under a conflict of interest. He has met his
burden in demonstrating a conflict and has no further obligation to demonstrate
substantially any error or prejudice resulting therefrom. State v. Murray, 315. N.J.
Super. 535. (App. Div. 1998), certif. granted 158 N.J. 75 (1999), afPd as modified and
remanded 162 N.J. 240 (2000), appeal after remand, 345 N.J. Super. 158. (App. Div.
2001). To that end, the defendant respectfully requests a remand for a new trial, or
in the alternative, an evidentiary hearing so his contentions may be fully addressed.

14

REASONS FOR GRANTING THE PETITION

1) Defendant was denied the effective assistance of trial counsel entitling him to
post-conviction relief or an evidentiary hearing on the issue of the failure to
call Sanchez as a corroborating witness to his defense that Connelly’s claim
was only a form of exploitation as a means to gain a financial windfall.
2) Counsel was ineffective for failing to adequately prepare for trial in having
forgone a defense witness whose testimony would have had the likely effect of
changing the outcome of the trial.
3) Counsel labored under a conflict of interest with his Law partner Muhammad
Bashir who represented Sanchez and was disbarred for violating the same
Rules of Professional conduct regarding another matter.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Samuel L. Wfiody^

Date:

July 17th, 2020

